                                                OFFICE OF INSPECTOR GENERAL
                                                                        MEMORANDUM




DATE:          March 7, 2003

TO:            Chairman

FROM:          Inspector General

SUBJECT:       Report on the Follow-up Special Review of Web Page Accessibility

The Office of Inspector General (OIG) has completed a Follow-up Special Review of Web Page
Accessibility. A copy of our report, No. 02-AUD-02-05, and entitled “Report on Follow-Up
Special Review of Web Accessibility” is attached.

The objective of this review was to determine how effective the Federal Communications
Commission (FCC) has been in providing access by the disabled to its Internet web sites. We
accomplished this in three ways by: (1) re-examining the FCC web accessibility program; (2)
determining whether management corrected the deficiencies reported in the OIG's, report entitled
“Special Review of Web Page Accessibility,” dated January 19, 2001; and (3) reviewing other
Commission web sites to evaluate accessibility.

In our opinion, the Commission has a proactive and effective web accessibility program
supported by the Disabilities Rights Office (DRO) within the Consumer and Governmental
Affairs Bureau (CGB), the Office of Media Relations (OMR), and the Information Technology
Center (ITC) within the Office of Managing Director (OMD).

During the review, the International Bureau (IB) asked us to expand the scope of the audit to
include an accessibility review of the web pages International Bureau Application Filing and
Reporting System (IBFS). At the Bureau’s request, we reviewed sixty two (62) unique IBFS
web pages for accessibility issues. Of these sixty two (62) web pages, sixty one (61) had
accessibility problems. To address these accessibility issues, we recommend IBFS be redesigned
to comply with Federal accessibility standards.

In a response dated February 14, 2003, the Office of Managing Director (OMD) and the Chief,
International Bureau (IB) indicated concurrence with the review finding and recommendation.
OMD and IB outlined the corrective action taken and provided a milestone schedule for
implementation of corrective action. We have included a copy of this response in its entirety as
Appendix 4 to this report.
If you have any questions, please contact Thomas Bennett, Assistant Inspector General for
Audits at (202) 418-0477.




                                            H. Walker Feaster III

Attachment

cc:    Chief of Staff
       Managing Director
       Chief, International Bureau
       Chief, Consumer and Governmental Affairs Bureau
       Chief, Wireless Telecommunications Bureau
       Director, Office of Media Relations
       Chief Information Officer
       AMD – PERM
   FEDERAL COMMUNICATIONS
         COMMISSION
         OFFICE OF INSPECTOR GENERAL




Report on Follow-Up Special Review of Web Page Accessibility

              Audit Report No. 02-AUD-02-05

                        March 7, 2003
             Follow-up on the Special Review of Web Page Accessibility

                                 Table of Contents


                                                                         Page


EXECUTIVE SUMMARY                                                          2


REVIEW OBJECTIVE                                                           3


REVIEW SCOPE                                                               4


BACKGROUND                                                                 4


OBSERVATIONS                                                               5


RECOMMENDATION                                                             9


APPENDIX 1 – Summary of Web Accessibility Original Findings                10


APPENDIX 2 – IBFS Web Sites with Accessibility Issues                      11


APPENDIX 3 – IBFS Web Sites without Accessibility Issues                   15


APPENDIX 4 – Management Response                                           16




                                         1
EXECUTIVE SUMMARY

One of the major initiatives of the Federal Communications Commission (FCC) is
Universal Access. Among its goals are to increase access to advanced
telecommunications services throughout the Nation and advance the availability of such
services to all. This includes accessibility to the FCC’s web pages.

The objective of this follow-up special review of web page accessibility was to determine
how effective the FCC has been in providing access by the disabled to its Internet web
sites. We accomplished this objective in three ways by (1) re-examining the FCC web
accessibility program; (2) determining whether management corrected the deficiencies
reported in the OIG's, report entitled “Special Review of Web Page Accessibility,” dated,
January 19, 2001; and (3) reviewing other Commission web sites to evaluate
accessibility.

Web accessibility refers to the ability of individuals with disabilities to have access to and
use of information and data that is comparable to the access to and use of information by
those without disabilities. In 1998, Congress amended the Rehabilitation Act of 1973 to
strengthen provisions covering access to information in the Federal sector for people with
disabilities. The amendment, Section 508 of the Rehabilitation Act, requires that all
federal agencies ensure that electronic and information technology is accessible to
employees and the public. The Section 508 regulations were published on December 21,
2000.

Web accessibility is a part of the Commission’s Disability Issues Major Initiative. A
Major Initiative is an item that the Commission considers critical. An item is classified as
a Major Initiative because of the politics involved, a complicated regulatory history, or
its affect on a potentially large number of people. The FCC has included the Disabilities
Rights Office, including web accessibility, as a Major Initiative because the FCC has an
obligation to ensure that telecommunications are accessible and usable to the 54 million
Americans with disabilities.

In the original review, we found that thirty-one (31) Commission web pages had some
accessibility problems. During this review, we have determined that, of the original
thirty-one web pages, identified by Uniform Resource Locators, (URLs), none had
accessibility problems. We then examined the home pages of selected Bureaus and
Offices. None of these other websites we examined had accessibility issues.

During the review, the International Bureau (IB) asked us to expand the scope of the
audit to include an accessibility review of the web pages International Bureau
Application Filing and Reporting System (IBFS). To comply with IB’s request, we
reviewed sixty two (62) unique IBFS web pages for accessibility issues. Of these sixty
two (62) URLs, sixty one (61) had accessibility problems, indicating that the entire IBFS
application had significant accessibility problems. To address these significant
accessibility issues, we have recommended IBFS be redesigned to comply with
accessibility standards.

                                              2
In a response dated February 14, 2003, the Office of Managing Director (OMD) and the
Chief, International Bureau (IB) indicated concurrence with the finding and
recommendation. OMD and IB outlined the corrective action taken and provided a
milestone schedule for implementation of corrective action. We have included a copy of
this response in its entirety as Appendix 4 to this report.

REVIEW OBJECTIVE

The objective of this review was to determine whether FCC web sites are accessible to
disabled users. We sought to determine the extent that the Commission implemented the
Section 508 standards as related to web accessibility.

To accomplish this objective, we performed the following steps. First we re-examined
the FCC web accessibility program in order to determine whether management
corrected the deficiencies reported in the OIG's, report entitled “Special Review of Web
Page Accessibility,” Report No. 00-AUD-10-55, and dated January 19, 2001. In that
report, the OIG recommended that the Commission enhance its existing information
systems and web accessibility program by:

1. Fixing the thirty one (31) identified accessibility problems in the Commission’s web
   pages.

2. Integrating web accessibility into the Commission’s Systems Development Life
   Cycle (SDLC).

To analyze the web sites with previously identified accessibility issues, we used a
commonly used accessibility analysis tool called Bobby. Bobby is a web-based
automated tool that analyzes web pages for their accessibility to people with disabilities.1
Bobby was created to help Web page authors identify and repair significant barriers to
access by individuals with disabilities. Bobby now has an option to analyze sites using
the Section 508 Guidelines. Using Bobby, we were able to analyze FCC web pages to
determine accessibility.

In addition to our follow-up work, we examined a selection of other Commission web
sites with Bobby. The purpose of this examination was to determine if these sites had
any accessibility issues. The sites reviewed included such Commission Web pages as the
FCC Home Page, the Consumer and Governmental Bureau (CGB), the Office of
Inspector General (OIG) home page, the FCC Intranet Home Page2, and the Disability
Rights Office (DRO) web page. No accessibility problems were found in the
examination of these web pages.

1      The Bobby analysis tool was obtained from the Center for Applied Special Technology (CAST)
       on their web page located at http://bobby.cast.org.
2      The FCC Intranet Web site was not tested by Bobby. Instead, a text-only Web page was available
       as a substitute. As the Scope section of this report states, we considered text-only pages as
       acceptable alternatives.

                                                 3
REVIEW SCOPE

The scope of this audit was limited to web pages on the FCC’s Internet and Intranet web
sites. No sites using Secure Socket Layer (SSL) security technology were reviewed.
SSL is a web security technology used to encrypt transmissions. In the FCC, web pages
using SSL are commonly found on e-filing sites using a unique password. Bobby was
unable to analyze sites using SSL for web accessibility.

Another scope issue included the use of text-only pages. If a web page provided a link to
an alternative, text-only, page, we did not review the web page. We considered the text-
only page an acceptable alternative method of providing access to Commission
information on the Internet.

Our procedures were designed to comply with applicable auditing standards and
guidelines. Specifically, our audit approach conforms to Generally Accepted
Government Auditing Standards (GAGAS).

During the audit, the International Bureau (IB) asked us to expand the scope of the audit
to include an accessibility review of the web pages International Bureau Application
Filing and Reporting System (IBFS). IB wanted the OIG to determine it IBFS had
accessibility problems that would prevent it from being utilized by disabled users. To
comply with request of IB, we reviewed sixty one (61) unique IBFS web pages for
accessibility issues.

The review was conducted at the Commission headquarters facility located at 445 12th
Street, Southwest, Washington, DC. Fieldwork on this audit was conducted from January
25, 2002 through January 23, 2003.

BACKGROUND

The Commission’s direction and efforts with regard to web accessibility are based on
federal laws that require that agency’s web pages be accessible to all. Federal web
accessibility requirements originated from Section 508 of the Rehabilitation Act of 1973
(Section 508). In 1998, Congress amended the Rehabilitation Act and strengthened
provisions covering access to information in the Federal sector for people with
disabilities. Section 508 requires that the Federal government's electronic and
information technology is accessible to employees and the public. The law applies to all
Federal agencies when they develop, procure, maintain, or use electronic and information
technology.

The scope of Section 508 is expansive. "Electronic and information technology"
potentially includes any technology that is used in the “automatic acquisition, storage,
manipulation, management, movement, control, display, switching, interchange,
transmission, or reception of data or information.” 3 This broad definition potentially

3      40 U.S.C. §1401(3) (definition of "information technology").

                                                  4
includes all telecommunications devices (including telephones, voice-mail systems,
pagers, facsimile machines, and related technology) and any technology used to convey,
transmit, or receive any kind of information. Section 508 also includes the web sites of
federal agencies. This amendment requires that all facets of information technology must
be made accessible to persons with disabilities. Section 508 became effective the day it
was enacted, August 7, 1998. Federal agencies are required to ensure that their electronic
and information technology is accessible to persons with disabilities.

To clarify the regulations, the statute designated the Architectural and Transportation
Barriers Compliance Board (Access Board) to develop standards for complying with
Section 508. The Access Board issued its final regulations on December 21, 2000.

Section 508 imposes important duties on Federal agencies. The guidelines of the Access
Board require Federal agencies to make their current information and electronic
technologies accessible to employees with disabilities and members of the public with
disabilities. Furthermore, Federal agencies must incorporate the needs of persons with
disabilities when they make any changes to current information and electronic
technologies.

Section 508 also includes remedies to insure compliance. This amendment permits any
individual or government employee with a disability may file a complaint alleging that a
Federal department or agency fails to comply with Section 508. If a Federal agency
obtains electronic and information technology that does not comply with the standards
developed by the Access Board, it is subject to administrative complaints and private
lawsuits by employees and members of the public.

The private lawsuits allow for both private rights of action in court and for reasonable
attorneys’ fees. Although compensatory or punitive damages will not be available to
prevailing plaintiffs, equitable remedies, such as declaratory and injunctive relief, are
available.

OBSERVATIONS

This audit focused on two aspects of the FCC’s web accessibility program. First, we re-
examined the Commission’s formal disability rights program, especially as it relates to
web accessibility. Next, we tested a selection of FCC web pages to determine the extent
that the Commission has met accessibility guidelines.

The objective of this follow-up review on web accessibility was to determine how
effective the FCC has been in providing access by the disabled to its Internet web sites.
We accomplished this in three ways by (1) re-examining the FCC web accessibility
program; (2) determining whether management corrected the deficiencies reported in the
OIG's, report entitled “Special Review of Web Page Accessibility,” Report No. 00-AUD-
10-55, and dated January 19, 2001; and (3) reviewing other Commission web sites to
determine if they are accessible.



                                              5
The FCC’s Accessibility Program

The FCC has an active accessibility program. It is one of the Commission’s Major
Initiatives. The FCC has a dedicated office, the Disability Rights Office (DRO), which is
part of Consumer & Governmental Affairs Bureau (CGB) that is dedicated to
accessibility issues. CGB also has a web page dedicated solely to Section 508.

The Information Technology Center (ITC) also has a major role in Web accessibility.
The ITC Customer Service Representative (CSR) for accessibility is the focal point for
these issues. The ITC also plays a part in the determining that web sites comply with
accessibility laws. The ITC performs the required accessibility assessments. In 1999, the
ITC completed the FCC Web Site Accessibility Report, which we reviewed. This report
met the Department of Justice (DOJ) Section 508 accessibility requirement. We
reviewed this self-evaluation and found it satisfactory.

A third key participant in the Commission’s accessibility program is the Office of Media
Relations (OMR). The Webmaster is part of OMR and is responsible for the
maintenance of those FCC Web pages that do not belong to an e-filing application.

The Commission has taken a number of positive steps since our last review to enhance its
web accessibility program. The Commission purchased and developed the tools
necessary to analyze web pages for accessibility problems. For example, the ITC
purchased a Web accessibility analysis tool, PageScreamer, from Crunchy Technologies.
This tool allows FCC developers to not only to test Web pages during development, but
also to fix some of the problems, and allows developers to author code that will produce
accessible pages.

 A second major step was the development of a standardized FCC web page template.
The template is used for most heavily accessed Commission web pages. Not only does
the template provide a standardized web interface for the Commission, it reduces the
likelihood that accessibility errors would occur because the template is used on all major
FCC web pages. Its widespread use effectively minimizes the likelihood that
accessibility problems will occur on these pages.

A third factor is the integration of accessibility into the Commission’s SDLC. The
Design Phase of the SDLC has a step that requires the developer to prepare design
specifications to address federal laws and regulations. This step specifically uses
accessibility as an example of the regulations to be addressed. This effectively requires
developers and analysts to consider accessibility issues when designing a system.

Finally, the Commission has developed internal guidelines for FCC Web site
accessibility. The first is a webpage accessibility design site. This Intranet web page
provides Commission employees and contractors with resources on web accessibility.
ITC also has an accessibility information plan on the FCC Intranet. This plan outlines
how ITC will implement and follow Federal electronic and information technology
standards.

                                             6
Results of the Follow-up

The original report recommended that the Commission enhance its existing information
systems and web accessibility program by:

1. Fixing the accessibility problems in the thirty one (31) Commission’s web pages
   identified in the original special review.

2   Integrating web accessibility into the Commission’s Systems Development Life
    Cycle.

We will discuss the status of these recommendations below.

Recommendation 1 of 2: Fixing Web Page Accessibility Problems.

The original report identified thirty one (31) FCC Internet web sites with accessibility
problems. These web sites are listed in Appendix 1. To insure compliance, we decided
to retest all thirty one (31) web pages using the Bobby tool for compliance with the
Section 508 Federal Law. This tool, as previously described, is commonly used for
accessibility testing.

Twenty (20) of the thirty-one (31) web pages had no accessibility problems. They had
been repaired by either the Commission Webmaster or the application owner. They
included all of the Bureau and Office home pages that had accessibility issues during our
initial review. Eleven (11) of the thirty one (31) pages were no longer found at the
original URL and, therefore, not tested. In general, the Commission appears to have
taken action on the previously identified accessibility problems.

Again using Bobby, we also tested a selection of FCC Web pages that did not appear on
as findings on the original report. Among the web sites we tested were the FCC’s home
page, Chairman Powell’s home page, the home pages from most Bureaus and Offices,
selected web pages from the Commission’s Major Initiatives, and many of the FCC’s
public access pages. We chose pages that would provide us with a representative cross
section of the FCC’s Internet activity. None of the tested pages had accessibility issues.

This finding is closed. The disposition of the accessibility problems with the three web
pages that had accessibility problems will be covered in the Recommendation section
below.

Recommendation 2: Integrating Web Accessibility into the SDLC

As previously stated in the section describing the FCC’s accessibility program,
accessibility is a part of the Commission’s SDLC. The Design Phase of the SDLC has a
step that requires the developer to prepare design specifications to address federal laws
and regulations. This step specifically uses accessibility as an example of the regulations

                                             7
to be addressed. This requires developers and analysts to consider accessibility issues
when designing a system.

This finding is closed.

Review of International Bureau Application Filing and Reporting System (IBFS)

During the audit, the International Bureau (IB) asked us to expand the scope of the audit
to include an accessibility review of the web pages International Bureau Application
Filing and Reporting System (IBFS). To comply with request of IB, we reviewed sixty
one (61) unique IBFS web pages for accessibility issues.

We defined an accessibility issue as a Priority 1 accessibility error detected by Bobby.
To analyze IBFS, we used the online version of the Bobby tool. A Priority 1 accessibility
error is a problem that seriously affecting the page's usability by people with disabilities.
Only sites with no Priority 1 accessibility errors can claim a Bobby Approved rating. A
website with no Priority 1 errors meets the Bobby 508 Approved standard if the entire
website conforms to both the automated and manual checks used by the Section 508 test
within Bobby. Our review focused on Priority 1 accessibility errors that were
automatically detectable by Bobby.

Of the sixty two (62) URLs tested, sixty one (61) had at least one accessibility issue.
Appendix 2 lists these sites. One site, the IBFS home page, had no Priority 1 Bobby
errors and had no accessibility issues. This information is listed in Appendix 3.

Only one (1) of the sixty two (62) IBFS URLs tested had no accessibility issues. This
equates to less than or two (2) percent cent of all the sites tested. The low compliance
rate leads us to conclude that the entire IBFS application has significant accessibility
problems.

IBFS was Designed before Accessibility Requirements Existed

IBFS is a system that was developed before Section 508 became effective. IBFS was not
designed to conform to the accessibility laws and was not designed with accessibility in
mind. As an older legacy system, IBFS does not meet current Federal government
accessibility requirements.

Failure to Comply with Accessibility Requirements Introduces the Risk of Legal Action

Section 508 also includes remedies to insure compliance. This amendment permits any
individual or government employee with a disability may file a complaint alleging that a
Federal department or agency fails to comply with Section 508. If a Federal agency
obtains electronic and information technology that does not comply with the standards
developed by the Access Board, it is subject to administrative complaints and private
lawsuits by employees and members of the public.



                                              8
The private lawsuits allow for both private rights of action in court and for reasonable
attorneys’ fees. Although compensatory or punitive damages will not be available to
prevailing plaintiffs, equitable remedies, such as declaratory and injunctive relief, are
available. To avoid a possible lawsuit, we recommend IBFS be redesigned to comply
with accessibility standards.

Recommendation 1: Redesign IBFS to Comply with Accessibility Requirements

We recommend that the Commission enhance its existing information systems and web
accessibility program redesigning the IBFS application to comply with accessibility
standards. This includes fixing all the sixty one (61) web pages identified in Appendix 2.

If this recommendation cannot be immediately implemented, we request a milestone
schedule be developed for the implementation of corrective action.

Management Response

In a response dated February 14, 2003, the Office of Managing Director (OMD) and the
Chief, International Bureau (IB) indicated concurrence with the finding and
recommendation. OMD and IB outlined the corrective action taken and provided a
milestone schedule for implementation of corrective action. We have included a copy of
this response in its entirety as Appendix 4 to this report.

We have also noted that the FFC Webmaster has repaired nineteen (19) of the sixty one
(61) web pages that had accessibility issues. The repaired sites are marked as ‘repaired’
in the Comments section of Appendix 2. No additional action is necessary for these web
pages.




                                              9
                                                                      Appendix 1


        Summary of Web Accessibility Original Findings
NO.                               NAME OF WEB PAGE
  1   International Bureau Filing System (IBFS) Login Screen
  2   International Bureau Filing System (IBFS) Account Maintenance
  3   Children's Educational Television Home Page
  4   Office of Engineering and Technology (OET) Search Form
  5   International Bureau Home Page
  6   OLIA Home Page:
  7   Office of General Counsel (OGC) Home Page
  8   Commissioner Furchtgott-Roth’s Home Page
  9   2000 Regulatory Fees Home Page
 10   Office of Plans and Policy (OPP) Home Page
 11   Office of Managing Director (OMD) Home Page
 12   Kennard Development Initiative Home Page
 13   International Visitors Program
 14   Index of Public Notices
 15   Index of News Releases
 16   Index of Orders
 17   FCC Phonebook
 18   FCC Topical Index
 19   FCC Communications Commission Jobs Page
 20   ARMIS Home Page
 21   Children’s Educational Television Home Page
 22   Consumer Complaint Form for Telephone Related Issues
 23   CDBS Public Access
 24   MDS/ITFS Data Entry Page
 25   Electronic Comment Filing System (ECFS) Alternative Link
 26   Electronic Tariff Filing System (ETFS) Home Page
 27   FCC Major Initiatives
 28   FCC Resources
 29   FCC Chairman Wm. Kennard Biography (text only)
 30   FCC Chairman Wm. Kennard Column (text only)
 31   ULS TIN/Call Sign Registration:




                                               10
                                                   IBFS Web Sites with Accessibility Issues                                         Appendix 2


During our review, we found that sixty one (61) IBFS web pages had accessibility observations. For each accessibility
observation, we have identified the specific web pages on which problems were identified. The identification includes a brief
description (e.g., IBFS Home Page) and the specific URL (e.g., fcc.gov/bureau/).

All web sites were tested with the accessibility tool Bobby. All Bobby observations had at least one Priority 1 accessibility
error. The marketers of Bobby, Watchfire, Inc., define Priority 1 accessibility errors as “problems that seriously affect the
 page's usability by people with disabilities. A Bobby Approved rating can only be granted to a site in which none of the
pages have (Priority 1) accessibility errors. ” If its Bobby classification is Priority 1, the web page fails the test. We only
identified pages with Priority 1 errors.

  NO.    IBFS SITE TESTED                    URL                                                                                  COMMENTS

   1.    IB FCC ACCOUNTING RATE    http://svartifoss2.fcc.gov/cgi-
         CURRENT AUTHORIZATION     bin/ws.exe/prod/ib/forms/reports/swr019b.hts?column=ACCOUNTING_CHANGE
         LISTING BY CARRIER REPORT .carrierC/CARRIER&fstate=1/CURRENT&prepare=,
         WR019
   2.    IB FCC ACCOUNTING RATE              http://gullfoss2.fcc.gov/cgi-bin/ws.exe/prod/ib/forms/reports/swr019b.hts?set=,
         AUTHORIZATION LISTING
         REPORT WR019
   3.    IB FCC ACCOUNTING RATE    http://gullfoss2.fcc.gov/cgi-
         PENDING AUTHORIZATION     bin/ws.exe/prod/ib/forms/reports/swr019b.hts?column=ACCOUNTING_CHANGE
         LISTING BY CARRIER REPORT .carrierC/CARRIER&fstate=0/PENDING&prepare=,
         WR019
   4.    IB FCC ACCOUNTING RATE              http://gullfoss2.fcc.gov/cgi-
         PENDING AUTHORIZATION               bin/ws.exe/prod/ib/forms/reports/swr019b.hts?column=ACCOUNTING_CHANGE
         LISTING BY ADMINISTRATION           .administrationC/ADMINISTRATION&fstate=0/PENDING&prepare=
         REPORT WR019

   5.    FCC ACCOUNTING RATE                 http://svartifoss2.fcc.gov/cgi-
         CURRENT AUTHORIZATION               bin/ws.exe/prod/ib/forms/reports/swr019b.hts?column=ACCOUNTING_CHANGE
         LISTING BY ADMINISTRATION           .administrationC/ADMINISTRATION&fstate=1/CURRENT&prepare=
         REPORT WR019

   6.    PAYMENT INSTRUCTIONS                http://svartifoss2.fcc.gov/prod/ib/forms/payment_instructions.htm
   7.    IB FCC SELECTED                     : http://svartifoss2.fcc.gov/cgi-
         APPLICATION LISTING BY FILE         bin/ws.exe/prod/ib/forms/reports/swr031b.hts?q_set=MAIN.file_numberC/File+N
         NUMBER                              umber/%3D/IPFLIC2000040300001&prepare=&column=MAIN.file_numberC/File
         REPORT WR07                         +Number
   8.    IB FCC VSAT                         http://svartifoss2.fcc.gov/cgi-bin/ws.exe/prod/ib/forms/reports/swr05b.hts?vsat=,
         AUTHORIZATIONS LIST
         REPORT WR05
   9.    IB FCC LIST                         http://svartifoss2.fcc.gov/cgi-bin/ws.exe/prod/ib/forms/reports/swr04b.hts?calls=,
         REPORT WR04

  10.    IB FCC IPF CURRENT       http://svartifoss2.fcc.gov/cgi-
         AUTHORIZATIONS LIST BY   bin/ws.exe/prod/ib/forms/reports/swr025b.hts?as_subsystem_code=IPF/IPF&col
         FILE NUMBER REPORT WR025 umn=MAIN.file_numberC/FILE+NUMBER&fstate=1/CURRENT&prepare=,


  11.    IB FCC IPF PENDING                  http://svartifoss2.fcc.gov/cgi-
         APPLICATION LIST BY FILE            bin/ws.exe/prod/ib/forms/reports/swr024b.hts?as_subsystem_code=IPF/IPF&col
         NUMBER                              umn=MAIN.file_numberC/FILE+NUMBER&fstate=0/PENDING&prepare=
         REPORT WR024

  12.    FCC AUTHORIZATIONS LIST             http://svartifoss2.fcc.gov/cgi-
         REPORT WR014                        bin/ws.exe/prod/ib/forms/reports/swr014b.hts?as_subsystem_code=SAT&fstate=
                                             1&column=Callsign&set=,




                                                                           11
                                           IBFS Web Sites with Accessibility Issues                                Appendix 2


13.   FCC AUTHORIZATIONS LIST         http://svartifoss2.fcc.gov/cgi-
      REPORT WR013                    bin/ws.exe/prod/ib/forms/reports/swr013b.hts?as_subsystem_code=SAT&fstate=
                                      1&column=File+Number&set=,

14.   FCC AUTHORIZATIONS LIST         http://svartifoss2.fcc.gov/cgi-
      REPORT WR012                    bin/ws.exe/prod/ib/forms/reports/swr013b.hts?as_subsystem_code=SAT&fstate=
                                      1&column=File+Number&set=,

15.   FCC AUTHORIZATIONS LIST         http://svartifoss2.fcc.gov/cgi-
      REPORT WR08                     bin/ws.exe/prod/ib/forms/reports/swr08b.hts?as_subsystem_code=SES&column
                                      =Callsign&fstate=1&set=,

16.   FCC AUTHORIZATIONS LIST         http://svartifoss2.fcc.gov/cgi-
      REPORT WR10                     bin/ws.exe/prod/ib/forms/reports/swr010b.hts?as_subsystem_code=SES&colum
                                      n=Callsign&fstate=1&set=,

17.   FCC SELECTED APPLICATION http://svartifoss2.fcc.gov/cgi-
      LISTING                  bin/ws.exe/prod/ib/forms/reports/swr031b.hts?newfn=
      REPORT WR31
18.   EARTH STATION APPLICATION http://gullfoss2.fcc.gov/prod/ib/forms/ib_earth_station_sta_instructions.htm
      - INSTRUCTIONS


19.   FCC ISPC ASSIGNMENT LIST http://svartifoss2.fcc.gov/cgi-
      BY NETWORK STATE REPORT bin/ws.exe/prod/ib/forms/reports/swr017b.hts?as_subsystem_code=SPC/ISPC&
      WR017                    column=ISPC.network_stateC/Network+State&operation=gr
20.   FCC FOREIGN CARRIER             http://gullfoss2.fcc.gov/cgi-
      AFFILIATION NOTIFICATION        bin/ws.exe/prod/ib/forms/reports/swr028b.hts?as_subsystem_code=FCN/FOREI
      PENDING APPLICATIONS LIST       GN+CARRIER+AFFILIATION+NOTIFICATION&column=MAIN.file_numberC/FI
      BY FILE NUMBER                  LE+NUMBER&fstate=0/PENDING&prepare=

21.   GENERAL REPORTS AND             http://svartifoss2.fcc.gov/prod/ib/forms/oth_reps.htm
      QUERY TOOL
22.   FCC CONDITION/PROVISION         http://svartifoss2.fcc.gov/cgi-
      TEXT LISTING                    bin/ws.exe/prod/ib/forms/reports/swr011b.hts?cond=,
      REPORT WR011
23.   FCC SELECTED APPLICATION http://svartifoss2.fcc.gov/cgi-
      STATUS: FIND BY OLD FILE bin/ws.exe/prod/ib/forms/reports/swr023b.hts?oldfn=,
      NO.
24.   FCC SELECTED APPLICATION http://svartifoss2.fcc.gov/cgi-
      STATUS: FIND BY FILE NO. bin/ws.exe/prod/ib/forms/reports/swr023b.hts?newfn=,


25.   FCC IPF CURRENT                 http://svartifoss2.fcc.gov/cgi-
      AUTHORIZATIONS LIST BY          bin/ws.exe/prod/ib/forms/reports/swr025b.hts?as_subsystem_code=IPF/IPF&col
      CALLSIGN                        umn=MAIN.callsignC/CALLSIGN&fstate=1/CURRENT&prepare=,

26.   FCC DATA NETWORK CODE     http://gullfoss2.fcc.gov/cgi-
      PENDING APPLICATIONS LIST bin/ws.exe/prod/ib/forms/reports/swr028b.hts?as_subsystem_code=DNC/DATA
      BY FILE NUMBER            +NETWORK+CODE&column=MAIN.file_numberC/FILE+NUMBER&fstate=0/PE
                                NDING&prepare=

27.   FCC FOREIGN CARRIER             http://gullfoss2.fcc.gov/cgi-
      AFFILIATION NOTIFICATION        bin/ws.exe/prod/ib/forms/reports/swr028b.hts?as_subsystem_code=FCN/FOREI
      PENDING APPLICATIONS LIST       GN+CARRIER+AFFILIATION+NOTIFICATION&column=MAIN.file_numberC/FI
      BY FILE NUMBER                  LE+NUMBER&fstate=0/PENDING&prepare=,

28.   FCC SUBMARINE CABLE             http://svartifoss2.fcc.gov/cgi-
      LANDING PENDING                 bin/ws.exe/prod/ib/forms/reports/swr028b.hts?as_subsystem_code=SCL/SUBM
      APPLICATIONS LIST BY FILE       ARINE+CABLE+LANDING&column=MAIN.file_numberC/FILE+NUMBER&fstate
      NUMBER                          =0/PENDING&prepare=,




                                                                   12
                                            IBFS Web Sites with Accessibility Issues                                     Appendix 2


29.   FCC RECOGNIZED                   http://svartifoss2.fcc.gov/cgi-
      OPERATING AGENCY                 bin/ws.exe/prod/ib/forms/reports/swr028b.hts?as_subsystem_code=ROA/RECO
      PENDING APPLICATIONS LIST        GNIZED+OPERATING+AGENCY&column=MAIN.file_numberC/FILE+NUMBER
      BY FILE NUMBER                   &fstate=0/PENDING&prepare=,

30.   FCC ISPC PENDING                 http://svartifoss2.fcc.gov/cgi-
      APPLICATIONS LIST BY FILE        bin/ws.exe/prod/ib/forms/reports/swr028b.hts?as_subsystem_code=SPC/ISPC&
      NUMBER                           column=MAIN.file_numberC/FILE+NUMBER&fstate=0/PENDING&prepare=,


31.   FCC DATA NETWORK CODE     http://gullfoss2.fcc.gov/cgi-
      PENDING APPLICATIONS LIST bin/ws.exe/prod/ib/forms/reports/swr028b.hts?as_subsystem_code=DNC/DATA
      BY FILE NUMBER            +NETWORK+CODE&column=MAIN.file_numberC/FILE+NUMBER&fstate=0/PE
                                NDING&prepare=,

32.   FCC INTERNATIONAL                http://gullfoss2.fcc.gov/cgi-
      SECTION 214 PENDING              bin/ws.exe/prod/ib/forms/reports/swr028b.hts?as_subsystem_code=ITC/INTERN
      APPLICATIONS LIST BY FILE        ATIONAL+SECTION+214&column=MAIN.file_numberC/FILE+NUMBER&fstate=
      NUMBER                           0/PENDING&prepare=

33.   FCC APPLICATIONS LIST            http://gullfoss2.fcc.gov/cgi-bin/ws.exe/prod/ib/forms/reports/swr028b.hts?,
34.   §214 EARTH STATION STA     http://svartifoss2.fcc.gov/prod/ib/forms/ib_earth_station_sta_instructions.htm,
      APPLICATION - INSTRUCTIONS


35.   FILING INSTRUCTIONS              http://gullfoss2.fcc.gov/prod/ib/forms/filing_instructions.htm,

36.   FCC 325-C PENDING                http://svartifoss2.fcc.gov/cgi-
      APPLICATIONS LIST BY FILE        bin/ws.exe/prod/ib/forms/reports/swr028b.hts?as_subsystem_code=325/325-
      NUMBER                           C&column=MAIN.file_numberC/FILE+NUMBER&fstate=0/PENDING&prepare=,


37.   FCC IHF CURRENT                  http://svartifoss2.fcc.gov/cgi-
      AUTHORIZATIONS LIST BY           bin/ws.exe/prod/ib/forms/reports/swr025b.hts?as_subsystem_code=IHF/IHF&col
      FILE NUMBER                      umn=MAIN.file_numberC/FILE+NUMBER&fstate=1/CURRENT&prepare=,


38.   FCC IHF CURRENT                  http://svartifoss2.fcc.gov/cgi-
      AUTHORIZATIONS LIST BY           bin/ws.exe/prod/ib/forms/reports/swr025b.hts?as_subsystem_code=IHF/IHF&col
      DATE EXPIRE                      umn=MAIN.date_expireD/DATE+EXPIRE&fstate=1/CURRENT&prepare=,


39.   FCC IHF PENDING                  http://svartifoss2.fcc.gov/cgi-
      APPLICATION LIST BY FILE         bin/ws.exe/prod/ib/forms/reports/swr024b.hts?as_subsystem_code=IHF/IHF&col
      NUMBER                           umn=MAIN.file_numberC/FILE+NUMBER&fstate=0/PENDING&prepare=,


40.   §214 APPLICATION -               http://svartifoss2.fcc.gov/prod/ib/forms/ib_214_instructions.htm,
      INSTRUCTIONS
41.   INDEX OF 1995 (Page 7 of 7)      http://www.fcc.gov/Bureaus/International/Public_Notices/1995/index7.html      Repaired 2/6/03

42.   INDEX OF COMMENTS                http://www.fcc.gov/Bureaus/International/Comments/,                           Removed 2/6/03

43.   INDEX OF DATABASES               http://www.fcc.gov/Bureaus/International/databases/                           Repaired 2/6/03

44.   INDEX OF COMMENTS ib97142 http://www.fcc.gov/Bureaus/International/Comments/ib97142/,                          Removed 2/6/03

45.   INDEX OF INTERNATIONAL           http://www.fcc.gov/Bureaus/International/                                     Repaired 2/6/03

46.   INDEX OF NEWS 1994               http://www.fcc.gov/Bureaus/International/News_Releases/1994/,                 Repaired 2/6/03
47.   GETTING STARTED                  http://svartifoss2.fcc.gov/prod/ib/forms/getting_started.htm,

48.   INDEX OF REPORTS                 http://www.fcc.gov/Bureaus/International/Reports/                             Repaired 2/6/03




                                                                     13
                                      IBFS Web Sites with Accessibility Issues                            Appendix 2


49.   INDEX OF REPORTS, PAGE 2   http://www.fcc.gov/Bureaus/International/Reports/index2.html         Removed 2/6/03

50.   INDEX OF PUBLIC NOTICES    http://www.fcc.gov/Bureaus/International/Public_Notices/             Repaired 2/6/03

51.   INDEX OF ORDERS            http://www.fcc.gov/Bureaus/International/Orders/                     Repaired 2/6/03

52.   2001 (PAGE 10 OF 10)       http://www.fcc.gov/Bureaus/International/Orders/2001/index10.html,   Repaired 2/6/03

53.   INDEX OF ORDERS 1994       http://www.fcc.gov/Bureaus/International/Orders/1994/                Repaired 2/6/03

54.   INDEX OF NOTICES           http://www.fcc.gov/Bureaus/International/Notices/,                   Repaired 2/6/03

55.   PUBLIC NOTICES, 2002       http://www.fcc.gov/Bureaus/International/Public_Notices/2002/,       Repaired 2/6/03

56.   NOTICES, 2001              http://www.fcc.gov/Bureaus/International/Notices/1995/               Repaired 2/6/03

57.   PUBLIC NOTICE SEARCH       http://svartifoss2.fcc.gov/prod/ib/forms/pubnotsearch.htm
58.   INDEX OF NEWS, 2002        http://www.fcc.gov/Bureaus/International/News_Releases/2002/         Repaired 2/6/03

59.   INDEX OF NOTICES, 2001     http://www.fcc.gov/Bureaus/International/Notices/2001/,              Repaired 2/6/03

60.   INDEX OF NOTICES, 1995     http://www.fcc.gov/Bureaus/International/Notices/1995/               Repaired 2/6/03

61.   INDEX OF NEWS RELEASES     http://www.fcc.gov/Bureaus/International/News_Releases/,             Repaired 2/6/03




                                                                                                      .




                                                             14
                         IBFS Web Sites without Accessibility Issues            Appendix 3




NO.   IBFS SITE TESTED     URL

1.    WELCOME TO IBFS      http://gullfoss2.fcc.gov/prod/ib/forms/index.html,




                                              15
      APPENDIX 4
Findings and Recommendations –
     Management Response




              16
